           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


           CONTROLS OVER
       SINGLE PAYMENT SYSTEM
              PAYMENTS

    September 2010   A-02-09-29123




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY
MEMORANDUM

Date:      September 30, 2010                                                              Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Controls over Single Payment System Payments (A-02-09-29123)


           OBJECTIVE
           Our objective was to determine the effectiveness of controls over the release of Single
           Payment System (SPS) payments.

           BACKGROUND
           The Social Security Administration (SSA) administers the Old-Age, Survivors and
           Disability Insurance program under Title II of the Social Security Act. 1 Before May
           2002, SSA was unable to make certain Title II payments through its automated
           systems. For example, SSA used a manual payment process to make appointed
           representative fee payments, death underpayments to non-beneficiaries, and reissued
           Lump-Sum Death payments. In May 2002, SSA created SPS to replace the manual
           payment process.

           SPS requires that employees enter their personal identification number (PIN) to approve
           a payment. SPS payments above certain dollar amounts require expert or manager
           approval before issuance. In these situations, more than one employee PIN must be
           used to approve a payment in SPS. Payments up to $6,000 only require the originator’s
           PIN for processing. SPS payments over $6,000 to $49,999 require two unique PINs
           before releasing them—the originator’s PIN and a technical expert or team leader’s
           PIN. 2 SPS payments of $50,000 or more require three PINs—the originator’s PIN, the
           expert or team leader’s PIN, and a manager’s PIN. SPS can only process payments
           below $100,000; payments of $100,000 or more to one individual are divided into two or
           more payments for processing so payments are under $100,000.




           1
               The Social Security Act § 202, 42 U.S.C. § 402 (2009).
           2
               Before June 22, 2009, the SPS threshold for the 2-PIN process was $5,300.
Page 2 - The Commissioner


SSA’s Top Secret System controls and monitors who can access and change critical
data in SSA’s systems, including SPS. The Top Secret System protects against
accidental or intentional corruption, destruction, disclosure, or denial of access to data
by individually tracking an employee’s access to SSA’s systems. It also stores the
employee’s name, PIN, and position information.

SSA’s Audit Trail System (ATS) collects and maintains electronic transactions entered
into the Agency’s programmatic systems 3 including SPS payment transactions. ATS
contains the daily collection of data each time an employee performs an auditable task
or transaction and stores it in a record specific to that individual. ATS collects employee
PIN data, Social Security numbers, and Title II benefit or income data.

During a meeting with staff in SSA’s New York Region, a case was discussed where
SPS released a payment with the same PIN accepted more than once in a situation
where three unique PINs should have been required. We initiated this audit to
determine the extent of such cases and identify the weakness in SPS controls that
allowed release of the payment without the required number of unique PINs.

To meet our objective, we performed data analysis of the over 2.5 million payments
processed through SPS from May 2002 through February 2010. Our analysis identified
867 SPS payments in which the first PIN appeared to match either the second or third
PIN recorded. From this population, we identified the payments actually released
without proper PIN approval. Additionally, we reviewed a sample of 264 SPS payments
requiring two or three PINs for approval to determine the appropriateness of the
payments as well as whether the individual approving the payments was authorized to
do so. See Appendix B for details of our scope and methodology.

RESULTS OF REVIEW
The controls over the release of SPS payments were generally effective, though some
improvements were needed. We did not identify any improper payments in our sample;
however, SSA released eight SPS payments of $50,000 or more, totaling $474,935,
without approval by three unique PINs.

SPS PAYMENTS OF $50,000 OR MORE

While SSA processed all SPS payments under $50,000 with two required unique PINs,
it released eight SPS payments of $50,000 or more without the required three unique
PINs. SPS processed one payment even though the second PIN matched the final PIN.
SSA informed us that SPS programming logic, which had been changed since the date
of the payment we identified, did not allow the second and final PINs to match. SPS
processed the other seven payments even though the third PIN was the same as the
first PIN.


3
    SSA programmatic systems include Title II Claims Processing Systems.
Page 3 - The Commissioner


In all eight payments, there were intervening actions between when the payment was
entered and when it was approved. Per SSA staff, three unique PINs must approve
SPS payments of $50,000 or more after payment data are changed or payments are
disapproved. In these cases, the disapprovals and/or changes to the record occurred
before SSA released the payments. SPS read the PIN that originally established the
payment as the first PIN and then released the payment based on the presence of two
additional unique PINs, despite the disapprovals or changes that occurred between the
first PIN and the other two PINs.

For example, SSA released a $60,848 payment approved by only two unique PINs in
July 2008. An SSA employee initially established the payment in SPS on April 1, 2008.
SSA staff disapproved the payment a number of times. On July 2, 2008, an SSA
employee disapproved the payment and then, after further review, approved the
payment—becoming the originating PIN for the payment. Another employee provided
the second PIN. Once the second PIN was added, the same employee who provided
the originating PIN provided the third PIN needed to release the payment.

In the above example, the employee who served as the first and third PINs could alter
the payment amount, direct deposit information, and/or address information to reroute
the payment when he or she approved the payment as the first PIN. Once this
employee approved the $60,848 payment, SSA’s policies and procedures required that
two other employees approve the payment as the second and third PINs because the
payment exceeded the $50,000 threshold. In this case, the system allowed this
employee to serve as the first and third PINs.

At our request, SSA reviewed the eight cases and confirmed that they were appropriate
payments sent to the right individuals. SSA also confirmed that, although SPS released
these eight payments with only two unique PINs, the system should have required three
unique PINs before releasing the payments. We met with SSA systems staff in
Headquarters and worked with them to identify the error in the programming logic that
allowed the release of these payments. Although the error in programming logic that
allowed a payment to be released with the same second and third PINs was previously
corrected, a change in programming logic to prevent the first and third PINs from
matching, as in the example above, is still required. SSA staff told us they are
correcting the programming language to prevent SPS from accepting duplicate PINs in
the future.
Page 4 - The Commissioner


CENTERS FOR SECURITY AND INTEGRITY REVIEWS

Employees in SSA’s program service centers (PSC) process SPS payments. SSA has
eight PSCs, six of which are located in the regions, and two are located at the Agency
Headquarters in Baltimore, Maryland. SSA’s regional Centers for Security and Integrity
(CSI) use the PSC Onsite Security Control and Audit Review (OSCAR) guide to review
the effectiveness of management controls in the PSCs. Per OSCAR guidance, regional
CSIs are required to review 100 percent of SPS payments of $50,000 or more for
accuracy and managerial oversight. 4 The PSC OSCAR guide requires that staff ensure
SPS payments were timely, completed for authorized situations, and supported by
appropriate documentation. The PSC OSCAR guide does not specifically require that
CSI staff review whether the payment was authorized by the appropriate level of staff or
the required number of PINs.

CSI does not review SPS payments originating from the two PSCs at Agency
Headquarters. SPS payments originating from these two PSCs are reviewed before
release by Payment Determination Analysts (PDA) in the Office of Central Operations.5
PDAs analyze and review SPS payments to detect actual or potential fraud or abuse
and approve the payments. They follow the review procedures in the OSCAR guide
before releasing payments.

Of the eight payments of $50,000 or more released by two unique PINs, a PDA
reviewed and released seven, and a manager in a PSC released one that was later
reviewed by CSI. While PDAs or CSI staff reviewed all eight payments according to
OSCAR guidance, they did not detect that the payments were released without the
prerequisite three unique PINs. In fact, the PDAs who released seven of the eight
payments, released the payments as the third PIN even though they had also signed
the payments as the first PINs.




4
    Office of Central Operations, OSCAR, Chapter 9, Management Controls, July 2008.
5
 PDAs were previously part of CSI but were moved to the Office of Disability Operations in October 2008.
PDAs review payments for accuracy under the same procedures as CSI before approving the payment.
Page 5 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
While all the SPS payments we reviewed were for the right amount and paid to the right
person, SSA released a few SPS payments that were inconsistent with the
authorizations required under its policies and procedures. All payments requiring two
PINs for approval had two unique PINs. However, SSA processed eight payments that
required three unique employee PINs with only two unique PINs. Also, while SSA
reported that the payments were reviewed according to OSCAR guidance, SSA staff
conducting the reviews did not detect that the payments were not properly authorized
prior to release.

Accordingly, we recommend that SSA:

1. Amend SPS controls to ensure three unique PINs are present before releasing
   payments for the situations similar to those we identified during our audit.

2. Revise PSC OSCAR instructions to require testing of the SPS system controls put in
   place in response to our first recommendation to ensure they are operating as
   intended.

AGENCY COMMENTS AND OIG RESPONSE
The Agency agreed with our recommendations (see Appendix C).




                                              Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                    Appendix A

Acronyms
ATS      Audit Trail System
CSI      Center for Security and Integrity
OIG      Office of the Inspector General
OSCAR    Onsite Security Control and Audit Review
PDA      Payment Determination Analyst
PIN      Personal Identification Number
POMS     Program Operations Manual System
PSC      Program Service Center
SPS      Single Payment System
SSA      Social Security Administration
U.S.C.   United States Code
                                                                          Appendix B

Scope and Methodology
Our objective was to determine the effectiveness of controls over the release of Single
Payment System (SPS) payments. To accomplish our objective, we:

•     Reviewed applicable sections of the Social Security Act and other relevant
      legislation as well as the Social Security Administration’s (SSA) regulations, rules,
      policies, and procedures.

•     Obtained two data extracts from the Audit Trail System (ATS) of SPS payments from
      May 1, 2002 through February 28, 2010.

             For the first extract, we identified 867 SPS payments from a population of
              2,578,983 SPS payments made in which it appeared the first personal
              identification number (PIN) matched either the second or third PIN. SSA
              policy dictates two unique PINs are required for payments of $6,000 to
              $49,999, and three unique PINs are required for payments of $50,000 or
              more. Upon further review, we concluded that 450 of the 867 payments only
              required 1 PIN for approval, and 409 payments had the required 2 unique
              PINs. The manner in which the data were recorded in ATS gave the
              appearance that these payments had two matching PINs even though only
              one PIN was required or two unique PINs were present when required. We
              identified eight SPS payments that required three unique PINs but only
              contained two.

             The second extract consisted of 10,470 SPS payments from 1 segment of the
              population 1 of SPS payments that required 2 or 3 PINs. We split the extract
              into 2 populations: (1) 7,405 payments requiring 2 PINs and
              (2) 3,065 payments requiring 3 PINs.

•     Reviewed a random sample of 50 payments from each of the 2 populations to
      determine whether authorized SSA employees approved the payments.

•     Analyzed each of the two populations to determine whether any indicators of fraud
      were present. To identify potential fraud, we reviewed the total amount each
      individual was paid, reviewed direct deposit account data as well as the address to
      which the payments were sent.




1
    One segment represents 5 percent of the population.


                                                   B-1
•   Reviewed an additional 43 payments in the 2-PIN approval process to 17 individuals
    to determine the accuracy of the payments. The payments reflected some of the
    highest paid individuals.

•   Reviewed an additional 121 SPS payments in the 3-PIN approval process to
    54 individuals to determine the accuracy of the payments. Each of these
    54 individuals received an SPS payment totaling over $130,000.

•   Reviewed the final PIN approvers to determine whether SSA employees processed
    an above average quantity of payments.

•   Referred cases with matching PINs to SSA.

•   Referred cases in which the approver appeared not to have the appropriate SPS
    approval authority to SSA.

•   Concluded SSA’s Center for Security and Integrity data conducted 100-percent
    reviews of SPS payments of $50,000 or more, as required by SSA’s policy.

•   Conducted SPS system validation tests with SSA Office of Systems’ employees to
    determine whether fewer PINs than required could process payments through SPS.

We performed our audit in the New York Audit Division between September 2009 and
June 2010. We tested the data obtained for our audit and determined them to be
sufficiently reliable to meet our objectives. The entities audited were the Division of
Systems Security and Program Integrity, a component of the Office of Public Service
and Operations Support, which is under the Deputy Commissioner for Operations, and
the Office of Retirement and Survivors Insurance Systems under the Deputy
Commissioner for Systems. We conducted our audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objective.




                                          B-2
                  Appendix C

Agency Comments
                                         SOCIAL SECURITY


MEMORANDUM


Date:      September 23, 2010                                                    Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Executive Counselor to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, "Controls Over Single Payment System
           Payments" (A-02-09-29123)--INFORMATION

           Thank you for the opportunity to review the subject report. Please see our attached comments.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Rebecca Tothero, Acting Director, Audit Management and Liaison Staff, at extension 6-6975.

           Attachment:
           SSA Response




                                                         C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “CONTROLS OVER SINGLE PAYMENT SYSTEM (SPS) PAYMENTS”
(A-02-09-29123)

Thank you for the opportunity to review the subject report. You analyzed more than 2.5 million
SPS payments we made over nearly eight years and found only eight instances with minor issues.
You also drew a sample of 264 payments and did not identify any improper payments in your
sample. Your findings confirm that we have strong internal controls over SPS activity and that
we process SPS payments correctly.

You state in your conclusion that, “SSA released a few SPS payments that were inconsistent with
the authorizations required under its policies and procedures.” In response, we have already
taken action to correct those inconsistencies.

Recommendation 1

Amend SPS controls to ensure three unique PINs are present before releasing payments for the
situations similar to those we identified during our audit.

Comment

We agree. On August 21, 2010, we modified the SPS software. In order to generate payment,
SPS now requires three unique personal identification numbers for SPS payments greater than
$49,999.99.

Recommendation 2

Revise PSC OSCAR instructions to require testing of the SPS system controls put in place in
response to our first recommendation to ensure they are operating as intended.

Comment

We agree in principle with your recommendation. However, instead of testing the SPS system
controls we will semiannually review a representative sample of SPS payments of $50,000 or
more to make sure the system’s change is operating as intended.




                                              C-2
                                                                     Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Tim Nee, Director, New York Audit Division

   Christine Hauss, Audit Manager

Acknowledgments

In addition to those named above:

   Raquel Tavera, Program Analyst

   Rajula Chandran, Senior IT Specialist

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-02-09-29123.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
